Tan |

Q@OCKLE

2311 Douglas Street Legal Brief E-Mail Address:
Omaha, Nebraska 68102-1214 8 Est. 19 3 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-607

WOODCREST HOMES, INC.,
Petitioner,

v.
CAROUSEL FARMS METROPOLITAN DISTRICT,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the REPLY BRIEF in the above entitled case. All parties required to be
served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JEFFREY H. REDFERN*
ROBERT J. MCNAMARA
PATRICK M. JAICOMO
INSTITUTE FOR JUSTICE
901 North Glebe Road, Suite 900
Arlington, VA 22203
(703) 682-9320
jredfern@ij.org

*Counsel of Record

Subscribed and sworn to before me this 24th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . LG Qudraw- ,
My Commission Expires Nov 24, 2020 G

Notary Public Affiant 39538

 
 

 

Attorneys for Respondent

Mark Christopher Fleming WilmerHale 617-526-6000
Counsel of Record 60 State Street
Boston, MA 02109

mark. fleming@wilmerhale.com

Party name: Carousel Farms Metropolitan District

 

Other
Robert H. Thomas Damon Key Leong Kupchak Hastert 808-531-8031
Counsel of Record 1003 Bishop Street

1600 Pauahi Tower
Honolulu, HI 96813-0000

rht@hawaiilawyer.com

Party name: Southeastern Legal Foundation, Cato Institute, Owners' Counsel of
America, NFIB Small Business Legal Center

 

 
